October 22, 2010

MEMORANDUM




Office of Inspector General 

November 18, 2010

TO:            USAID/Sudan Mission Director, William Hammink

FROM:          Acting Regional Inspector General/Pretoria, Robert W. Mason /s/

SUBJECT:       Survey of USAID/Sudan’s Elections Assistance Activities
               (Report No. 4-650-11-001-S)

This memorandum transmits our results of the subject survey for your review and
comment. This is not an audit report. However, the information presented in this
memorandum could form the basis of a future audit. In finalizing the memorandum, we
carefully considered your comments on the draft memorandum and have included those
comments in their entirety as Appendix I.

The objective of our survey was to answer the question: What activities is USAID/Sudan
undertaking to support Sudanese elections? In this survey we have attempted to identify
(1) the status of USAID/Sudan’s election assistance activities, (2) any concerns/barriers
to success regarding those activities, and (3) actions that the mission has taken to
address those concerns/barriers to success. The memorandum does not contain any
recommendations for action.

I sincerely appreciate the cooperation and courtesy extended to my staff during the
survey.

Background

The signing of the Comprehensive Peace Agreement (CPA) by the Sudan People’s
Liberation Movement and the Government of Sudan in 2005 provided an opportunity for
peace after a 22-year civil war between Northern and Southern Sudan. Among its
terms, the agreement provided for a 6-year interim period during which Southern Sudan
would be governed by an autonomous entity, called the Government of Southern Sudan
(GoSS), while central authority would be divided between the Government of Sudan and
GoSS. After the interim period, the Southern Sudanese would decide through a
referendum whether to become independent or continue as a self-governing component
of a unified Sudan. USAID’s broad range of programs in Southern Sudan is intended to
support the implementation of the CPA, with a long-term goal of assisting the country to
begin the peaceful and democratic transformation envisioned by the framers of the CPA.

The agreement requires that national elections be held prior to the referendum on
independence. Delayed four times since 2009, these elections were held in April 2010,



                                           1
and the referendum on independence 1 is scheduled for January 2011. These events
have significant ramifications for security in Africa, such as inciting Islamist and terrorist
activity and worsening the conflict in Darfur. Consequently, the United States has an
interest in ensuring that these elections are held peacefully and perceived by the
Sudanese people as credible.

USAID/Sudan conducts a number of elections assistance activities. Managed by the
mission’s Democracy and Governance Office, USAID/Sudan has agreements with five
principal implementing partners to assist in activities such as ballot design and voter
registration, conduct civic and voter education, strengthen political parties, and support
international observation efforts. The mission’s implementing partners work with entities
within both the Government of Sudan and GoSS, including the National Election
Commission (NEC), the Southern Sudan Election High Committee, and various state
election committees. The NEC, which the Government of Sudan established to carry
out the elections, delegates activities to state and local bodies.

Under these agreements, USAID/Sudan has obligated $95 million during fiscal years
(FY) 2008 and 2009 for elections assistance activities in preparation for both the April
2010 national elections and the January 2011 independence referendums.
USAID/Sudan manages and oversees these agreements through its offices in the
Sudanese capital, Khartoum, and Juba in Southern Sudan. Although USAID/Sudan
plays a crucial role in providing technical assistance and material support for the
elections, the Government of Sudan, through the NEC, actually conducts the elections.

April 2010 Election Update

Our survey fieldwork in Sudan was conducted prior to the April 2010 elections. Many
international observers stated that the elections were marred by intimidation,
gerrymandering, 2 and fraud. Notably, several of President Omar Hassan al-Bashir’s
opponents, including the main Southern party, the Sudan People’s Liberation Movement,
boycotted the President of Sudan election and other races in the North just days before
voting began, significantly undermining the legitimacy of the elections.

Some veteran observers of Sudan have been highly critical of the elections and the
referendum process and timetable. One observer commented that the referendum
should not be held at all, given clear indications that the South will move for
independence. This person added that the focus should be on determining final status
issues, such as oil, 3 and not devote undue attention to the referendum process. Another
commentator characterized the elections as a major diversion, noting that the
demarcation of the North–South boundary prior to the referendum was crucial. This
commentator added that the boundary negotiations are extremely complex, require

1
  In addition to the referendum on independence, there will be a referendum/related vote on
whether a disputed area, Abyei, will opt to become part of Bahr El-Ghazal State in Southern
Sudan or retain its special administrative status in the North.
2
 Gerrymandering means dividing a territorial unit into election districts to give one political party
an electoral majority in a large number of districts while concentrating the voting strength of the
opposition in as few districts as possible.
3
 The most productive oil fields in the country lie in Southern Sudan or along the unresolved
North-South border.


                                                 2
extensive international involvement, and should be on the agenda of the U.S. Special
Envoy to Sudan.

Official election results indicated that President al-Bashir was the winner, with 68 percent
of the vote. Although the elections have been criticized by the international community,
they represent a major milestone in the Comprehensive Peace Agreement and bring the
country one step closer to next year’s referendum vote.




                         Map of Sudan. Source: CIA World Factbook.



The Election Program and Activities

The Sudanese national elections in April 2010 faced great challenges, as will the
January 2011 referendums. The elections were delayed four times, and the NEC was
slow to deliver necessary information to voters. These postponements resulted in
budget overruns for several of USAID’s implementing partners. Compounding these
delays were the extremely poor roads throughout Sudan, high illiteracy rates—
particularly in Southern Sudan—and the dangerous and restrictive political environment
in which implementation takes place.

USAID worked with the NEC and implementing partners to support all of the key political
processes—including a population census, the April 2010 elections, the upcoming
Southern Sudan and Abyei referendums, and popular consultations in the Blue Nile and
Southern Kordofan. USAID took a holistic approach to assistance, working in several
key areas to foster successful elections and build civil society capacity within Sudan. It
designed a comprehensive nationwide assistance program to contribute to the
democratic transformation mapped out in the 2005 Comprehensive Peace Agreement,
including support for the above-mentioned key political processes. Support for elections


                                             3
fell into three key areas of assistance: election administration, civic participation (e.g.
political party capacity building, domestic observation capacity building and support, and
civic and voter education), and international observation.

Other donors also supported the elections through the Basket Fund, a pooled funding
mechanism managed by the U.N. Development Programme. This funding came from
multiple sources, not only because of the large scale of the elections but also to prevent
a perception that any one group might have an unfair influence on the elections’
outcome. USAID hoped that the experience of the elections, including lessons learned,
would lay the foundation for peaceful and credible referendums in Southern Sudan and
Abyei, as well as for citizen participation in popular consultations in Blue Nile and
Southern Kordofan.

USAID’s democracy and governance strategy, which eventually encompassed the civil
society and elections assistance programs, originated in FY 2004. Most of the programs
have had subsequent modifications and some extensions. Historically, because of its
general lack of capacity, Sudan has had a large demand for civil society assistance.
Prior to USAID/Sudan’s current democracy and governance programs, however, the
mission did not provide any such assistance activities. Consequently, the mission has
had to build this capacity from the ground up. The following sections discuss
USAID/Sudan’s elections assistance activities, the barriers to their success, and actions
taken to address those barriers.

Implementing Partners’ Activities

USAID/Sudan’s elections assistance activities are mainly conducted in the areas of
elections administration, voter education, political party capacity building, media
assistance, and international observation. The principal implementing partners
conducting these activities are the following:

•   The International Foundation for Electoral Systems (IFES). USAID’s elections
    administration partner, IFES, provides elections administration support to the NEC,
    the Southern Sudan Election High Committee, and state election high committees.
    Assistance covers different phases of the electoral process, such as constituency
    delimitation, voter and candidate registration, ballot design, and dispute resolution.
    IFES also serves as the main liaison between the NEC and other implementing
    partners supporting the elections. This liaison is crucial because IFES relays all
    information and decisions made by the NEC to relevant partners.

    IFES also provides technical assistance, capacity building, logistics, equipment and
    supplies, and electoral commodities such as polling booths, training kits, and polling
    kits and manuals. For the elections, IFES’s operational base was Khartoum, with a
    field office in Juba. For the referendums, IFES will maintain its Khartoum office,
    while likely increasing staff in Juba. IFES’s agreement with USAID has a total
    expenditure ceiling of $70 million and a period of performance from February 5,
    2009, through September 11, 2011. Though IFES will continue to provide technical
    assistance to NEC for the implementation of a series of elections not completed in
    April 2010, the majority of IFES support for elections is now complete.

•   The National Democratic Institute (NDI). NDI is USAID’s primary civic and voter
    education partner. USAID assistance through NDI supports the design and


                                            4
    production of civic and voter education materials, educational events on elections,
    electoral processes, and other avenues for civic participation. NDI conducts voter
    education activities covering the specific procedures for each step in the electoral
    process. NDI’s agreement with USAID has a total expenditure ceiling of $44 million
    and a period of performance from January 12, 2009 through January 31, 2012.

•   The International Republican Institute (IRI). IRI focuses on political party capacity
    building. Its activities help local political parties become better organized, develop a
    message and a platform-based campaign, and increase the capacity of these parties
    to operate effectively.

    IRI’s overall program objectives are to support the development of a competitive
    political environment nationwide through technical capacity building and
    organizational development assistance for political parties in the context of elections,
    referendums, popular consultations, and governance. A key objective is for political
    parties to run peaceful, issue-based campaigns. The program intends to increase
    capacity by simplifying party structures and increasing communication. IRI has
    developed a scorecard to help evaluate the progress of a political party by testing for
    the presence of certain qualities within the organization, such as clearly defined
    leadership structures and assignment of individuals to specific roles within those
    structures.

    Because of its work among different political parties, IRI faces significant security
    risks in Sudan. Although IRI takes great measures to work with all parties involved
    and remain neutral, staff members still face threats and arrests from police and
    armed forces who believe they are lobbying for a certain party or are working without
    consent from the Government of Sudan. IRI’s agreement with USAID has a total
    expenditure ceiling of $19.8 million and a period of performance from September 17,
    2004 through December 31, 2011.

•   The Educational Development Center (EDC), Deloitte & Touche, and Mercy
    Corps. These three organizations are USAID’s primary media partners. Elections
    funding supports the expansion of news coverage and broadcast air time for the
    independent shortwave Sudan Radio Service, including training workshops attended
    by representatives from the GoSS Ministry of Information and Broadcasting and
    other journalists on reporting on the electoral process.

    In addition, Mercy Corps specializes in forming and operating civil society coalitions.
    These are groups of Sudanese citizens in different communities that promote civil
    society activities and awareness. As the April 2010 elections approached, these
    coalitions shifted their focus and energies to the elections. Mercy Corps works with
    these coalitions to educate Sudanese people about the elections process. USAID’s
    agreements with these organizations have a total expenditure ceiling of $20.2 million
    and a period of performance from March 12, 2003 through December 31, 2011.

•   The Carter Center. USAID/Sudan supports international election observation
    through the Carter Center. The center’s immediate goal is to provide impartial
    observation of the election and compare it to other elections in this region of Africa.
    The ultimate goal is to increase the confidence of the Sudanese people in the
    elections and their results; such confidence will increase the people’s ability to
    conduct the referendum and other future elections.


                                             5
   The Carter Center is a key implementing partner and a highly regarded international
   election observation group. One of the center’s significant advantages is its
   relationship with the Government of Sudan, which is better than the government’s
   relations with most other nongovernmental organizations and has been strengthened
   by former President Jimmy Carter’s involvement in Sudan since 2004. The Carter
   Center is intentionally funded by multiple sources to prevent the perception that it
   might be biased toward any one individual group. It is expected that the Carter
   Center will continue its work for the referendum vote after the elections, but it is
   waiting to be formally invited by the Government of Sudan. The Carter Center’s
   agreement with USAID has a total expenditure ceiling of $2.1 million and a period of
   performance from January 13, 2009 through March 31, 2010. This agreement was
   first extended to June 30, 2010, and has subsequently been extended to July 31,
   2011, to enable the Carter Center to observe the referendums.

Progress of Elections Assistance Activities

Various factors have made the implementation of the mission’s elections assistance
activities quite challenging. For example, Sudan has not conducted a valid census in
recent years. Although a census was conducted in 2008, GoSS initially accepted but
later rejected the results. The mission believes, nevertheless, that the 2008 census
served as the basis for constituency delimitation and other planning for the national
elections. The resulting lack of data complicates voter registration and planning for voter
turnout. In addition, the Sudanese authorities have not decided how to divide contested
regions between the North and South. A further complication is the elections
administrators’ attempt to include Sudanese refugees abroad in the vote; even if
refugees can be located abroad, they must produce proper documentation proving that
they are refugees. Refugees who have returned to Sudan must provide documentation
of residence there for at least 3 months. Many newly returned refugees will have
problems meeting this requirement.

Logistics to conduct polling abroad and to ship ballots back and forth from Sudan add to
the many challenges of conducting elections within the country. The vote of refugees
abroad is a large concern because many Sudanese have been displaced in
undeveloped neighboring countries and within the Darfur region. The issue of refugee
voting is particularly crucial for Southern Sudan, because the majority of refugees are
from the South or Darfur, and the majority of the populations from these regions are
expected to support parties opposed to President al-Bashir.

Finally, USAID operations are implemented differently in Northern and Southern Sudan.
In the North they must overcome the obstacle of a closed government that restricts
access to many parts of the country, while in the South the major obstacles are a lack of
infrastructure and capacity. USAID has emphasized cooperation and communication
between all involved parties in order to create a unified and successful effort for the
elections. At the same time, however, USAID does not publicize its involvement in the
elections to the Sudanese people, because it wants to avoid any perception that the
outcome of the elections has been influenced by the U.S. Government. For this reason,
USAID branding is not practiced within the project.




                                            6
Despite these numerous challenges—including, moreover, a boycott of the elections by
several key opposition parties—some successes in elections planning were achieved.
Most elections milestones were met, including designing and producing ballots,
providing training for political parties and elections administrators, and producing voter
education materials. In addition, enfranchisement of women has been [legally]
mandated in the North and the South, and they constitute over 25 percent of registered
voters. Implementing partners and election observers have included the monitoring of
female voting into their work plans. The percentage of women’s seats in the National
Assembly, State Assemblies, and South Sudan Legislative Assembly is 25 percent per
the National Elections Act of 2008.

During this survey, mission officials voiced hope that the election process would be seen
as credible by the Sudanese people and would facilitate the democratic transformation
of the country. USAID development interventions to assist in the election were part of a
strategy to support all milestones of the CPA. To that end, progress in the practice of
elections was seen as conducive to successful referendums and popular consultations.
USAID/Sudan’s aim was that the April 2010 elections—important in their own right—
would also provide a smooth transition to the referendums in 2011. Although little time
remains between the elections and the referendums, USAID hopes to take lessons
learned from the elections and use them to contribute to credible referendums.

Barriers to Success

The elections and the referendum vote face serious challenges. These challenges result
from many factors in a country that is attempting to rebuild from a long period of conflict
and instability. Barriers to success for the elections can be categorized in, but not
limited to, the following areas:

USAID’s Interaction with Government Entities. USAID officials have experienced
frustration dealing with the Government of Sudan, the Government of Southern Sudan,
state-level governments, and county governments. These different units had difficulty
coordinating and communicating among them, and the communication gap between the
North and South was particularly wide. In addition, the Government of Sudan and
political parties involved in the elections tend to be highly centralized. Although
centralization itself is not necessarily a problem, decisions made by the central
leadership were not communicated effectively to state capitals and villages for long
periods of time. The erratic communications resulted in numerous delays and
complications in coordinating the elections.

While a general lack of infrastructure and capacity in the South is a barrier to success,
the main obstacle in the North is the restrictions imposed by the government. Travel
outside Khartoum is not allowed without a permit. The government exercises tighter
controls on the operation of NGOs and civil society groups. Although the North has
more infrastructure, organizations are still very limited in what they can do. A notable
setback occurred in 2009, when President al-Bashir expelled 13 international NGOs,
including USAID’s partner, Mercy Corps. This expulsion was in response to an
indictment from the International Criminal Court for seven counts of war crimes, and
crimes against humanity allegedly committed in Darfur. The U.S. Special Envoy to
Sudan negotiated with the Government of Sudan, with the result that the latter allowed
new NGOs that were affiliates of expelled NGOs to register to work in the country, but
the incident still created a setback in USAID’s operations.


                                            7
USAID and its partners experience severe frustrations when dealing with the NEC. In
the initial planning phase, the NEC refused all assistance from outside donors.
However, as the NEC began to realize the scope of its task, it became more open to
outside assistance and collaboration with USAID and other donors. Even though the
NEC finally decided to seek outside assistance, much time had already been lost in the
elections planning phase, and the vote was delayed as a result.

According to USAID’s implementing partners, NEC decisions tend to be late, unclear,
and biased. Since the NEC is the final authority on elections decisions, these decisions
have resulted in disorganization and delays. Moreover, an underlying attitude in
Sudan—among the government and the people alike—viewed the April 2010 elections
as just a test run in preparation for the referendum votes in 2011. Consequently, in
some cases, the Government of Sudan was not as proactive as it could have been in
planning and conducting these elections.

Unfamiliarity with the Electoral Process. The majority of the Sudanese people have
never participated in an election, since the country has not conducted national elections
in more than 20 years. Also, prior to the Comprehensive Peace Agreement, civil society
programs were practically nonexistent in Sudan. Consequently, elections assistance
activities have started from the ground up, resulting in a long, arduous process of
preparation.

These factors are compounded by an illiteracy rate of approximately 86 percent in the
South. This high illiteracy rate, combined with a lengthy written ballot, contributes to
long waiting lines at overcrowded polling stations. In addition, corrupt elections
moderators and political party representatives may mislead illiterate voters, causing
them to vote for an unintended candidate. This lack of capacity also creates challenges
for involving women in the elections. Women are legally allowed to vote, but they are
mostly illiterate and their compromised role in Sudanese society discourages their
participation.

Security Issues. Although the most recent war between the North and South in Sudan
has officially ended, violence lingers throughout the country. Hostilities make access to
different regions in the country complicated and dangerous. Darfur is almost entirely
inaccessible to USAID and implementing partners. In response to more immediate
priorities, most activities in Darfur concentrate on food security and basic humanitarian
aid instead of the elections.

Security for the Government of Sudan’s implementation of election activities is a major
issue. Polling stations must be manned with guards to maintain peace and the integrity
of voting results. Vehicles transporting ballots, supplies, and elections personnel must
also be guarded, and they face a constant threat of hijacking. In Southern Sudan, police
are typically short staffed and, at times, unreliable. The widespread locations and 5-day
voting period leave the elections open to violence and disorder. Such disruption is a
particularly high risk at polling stations during this time. 4



4
  Because of controversy over security activities, USAID/Sudan is not conducting security
activities related to the election.


                                           8
A possible consequence of this lack of security is harassment of voters at polling
stations. Observers fear that larger political parties will send representatives to different
polling stations to intimidate or otherwise unduly influence voters.

Logistical Challenges. Sudan is the largest country in Africa in terms of land area,
approximately as large as the United States east of the Mississippi River. Paved roads
in the South are practically nonexistent. Facilities suitable for polling are limited, and
almost all supplies needed to conduct the elections must be imported. Transportation of
staff and commodities for elections takes a great deal of time and is subject to harsh
conditions. A high demand for vehicles, which greatly exceeds the supply, has resulted
in high transportation costs and limited access to vehicles. Transportation security in
this extremely undeveloped country is always an issue because of bandits and groups
trying to interfere with elections.

These physical challenges are compounded by poor internal coordination within the
Government of Sudan. Officials’ failure to make prompt and clear decisions regarding
elections caused confusion and delays in (1) establishing polling stations throughout the
country, (2) staffing those stations with election workers, (3) providing polling stations
with necessary supplies, and (4) assigning registered voters to accessible polling
stations. One of the largest logistical challenges was the location of polling sites within
Sudan, and the establishment and operation at those sites. The number of polling sites
and stations used for these elections was small, given the geographic size of the
country. As a result, voters had to travel great distances over dangerous and unpaved
roads to reach their assigned polling center. Moreover, the NEC further reduced the
already limited number of polling sites (and consequently polling stations) just weeks
before the elections without warning. NEC explained that the number of sites was
reduced to ensure sufficient security coverage since security services had limited
capacity and could not cover the higher number of polling sites.

Mitigating Actions

Despite delays and obstacles, USAID/Sudan has taken several actions to overcome
barriers. These actions have included:

•   Maintaining a close relationship with implementing partners, monitoring their
    activities, and intervening in a timely manner when necessary.
•   Promoting communication among implementing partners.
•   Tracking the progress of activities through performance reports, meeting with
    implementing partners, and attending project-related events, including those in the
    South, whenever possible.

Conclusion

Despite the efforts of USAID and its partners, the boycott of the April 2010 elections by
the Sudan People’s Liberation Movement was a disappointing result. Additionally,
considerable challenges beyond USAID’s control may continue to hamper the success
of the January 2011 referendums. Nonetheless, auditors are encouraged by the
mitigating actions taken by the Mission to overcome barriers. As a result, we are not
making any recommendations.


                                             9
Evaluation of Management Comments

In its response to our draft memorandum, USAID/Sudan provided comments for a
number of points the mission wished to put on the record. Those comments are
included in their entirety as Appendix I. The mission’s requested corrections (see page
12) have been incorporated into the memorandum.




                                          10
                                                                               APPENDIX I


Management Comments




Date:            October 18, 2010

To:              Regional Inspector General/Pretoria, Christine M. Byrne

From:            USAID/Sudan Acting Mission Director, Susan Fine

Subject:         USAID/Sudan Management comment on RIG’s Survey of
                 USAID/Sudan’s Elections Assistance Activities, (Report No. 4-650-10-
                 XXX-S)

We would like to thank the RIG/Pretoria team for doing the review on USAID/Sudan’s
election assistance activities. Though there are no recommendations in the review,
USAID/Sudan is pleased to provide comments on the report.

USAID/Sudan wishes to note for the record the following points:
•     USAID support for the political processes of the 2005 Comprehensive Peace
      Agreement (CPA), including the April 2010 national elections and the upcoming
      Southern Sudan and Abyei referenda, is part of the USG policy to support the
      implementation of the CPA. USG is neutral regarding the outcomes of these events.
•     USAID took a holistic and nationwide approach to its elections assistance, working in
      four key assistance areas: support for the national census, which informed the
      delimitation of electoral constituencies; election administration, including technical
      and material assistance to the National Election Commission (NEC); civic
      participation, including political party capacity building, domestic observation
      capacity building and support, and voter education; and international observation.
•     Though USAID/Sudan, through its implementing partners, continues to provide
      limited support for several specific elections that did not occur on schedule in April
      2010, the majority of USAID assistance for elections has ended. Assistance activities
      also continue to support the Southern Sudan and Abyei referenda processes and
      popular consultations in Blue Nile and Southern Kordofan.
•     The Southern Sudan and Abyei referenda must be held simultaneously no later than
      six months prior to the end of the interim period, in accordance with the provisions of
      the CPA and Sudanese law.
•     Under its comprehensive nationwide elections assistance program, USAID/Sudan and
      its implementing partners worked with entities within both the Government of Sudan
      and Government of Southern Sudan, including the NEC and its regional and state



                                              11
                                                                                 APPENDIX I


    subsidiary bodies, as well as Sudanese political parties and civil society
    organizations.
•   USAID/Sudan obligated approximately $95 million during fiscal years 2008 (regular
    appropriations and supplemental) and 2009 (supplemental only) to support the
    electoral process. Given the delay in the elections and the fact that the full range of
    technical assistance offered was not utilized by the NEC, USAID/Sudan has applied
    remaining funds to its assistance for other electoral processes for the Southern Sudan
    and Abyei referenda.
•   Of the approximately 16.5 million Sudanese registered to vote, just over 100,000
    were registered to vote outside of Sudan, with approximately 68,000 casting ballots.
    Therefore, complicating factors related to out-of-country voting, while a relevant
    political issue, did not have a significant impact on the election. A more telling
    deterring factor in the success of the elections was the delay in implementation of key
    steps of the elections process by the NEC. This delayed procurement of electoral
    materials by IFES and shortened the time available for training of voter registration
    and polling staff, as well as for voter education.
•   The April 2010 national elections included votes at multiple levels, not simply
    President of Sudan. Salva Kiir was elected President of Southern Sudan with 92
    percent of the vote. Sudanese also voted for legislative assembly representatives at
    the national, Southern Sudan regional, and state levels, as well as state governors,
    with Bashir’s National Congress Party winning the majority of seats in the North and
    Kiir’s Sudan People’s Liberation Movement (SPLM) winning the majority of seats in
    the South.
•   Two primary objectives of USAID’s democracy and governance program in Sudan
    are to contribute to the democratic transformation mapped out in the CPA and to
    support the implementation of the key CPA political processes – including the 2008
    population census, the April 2010 elections, the Southern Sudan and Abyei referenda,
    and popular consultations in Blue Nile and Southern Kordofan.
•   While the report notes some observers’ comments on the elections, USG support for
    the elections and referenda reflect the commitment of the USG to the implementation
    of the CPA, which is a cornerstone of USG policy in Sudan. The importance of these
    CPA political processes has been reinforced repeatedly through strong public
    statements from senior USG officials including Secretary of State Hillary Clinton, the
    U.S. Special Envoy to Sudan General Scott Gration, and Congress. In addition to the
    CPA mandate, it is important to view Sudan’s national elections as an important step
    in the long-term progress towards democratic transformation in Sudan.

We also wish to clarify with respect to the report’s statements about the SPLM boycott
that the boycott by SPLM and other parties was in northern Sudan only. While the
boycott was a disappointment of the elections, USAID and its partners had no control
over this event.

We would like to request the correction of the following slight errors:
    •   Page 6, para 1, last sentence, change “June 30, 2011” to “June 30, 2010.”


                                             12
                                                                       APPENDIX I


•   Page 9, para 2, change “elections moderators” to “election workers.” In sentences
    3-5, change “polling stations” to “polling centers.”




                                       13
